<html>
<title> - [H.A.S.C. NO. 114-92]  DEPARTMENT OF THE NAVY 2017 BUDGET REQUEST AND SEAPOWER AND PROJECTION FORCES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


.                                
                         [H.A.S.C. No. 114-92]

                                 HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

     DEPARTMENT OF THE AIR FORCE 2017 BUDGET REQUEST AND READINESS

                               __________

                              HEARING HELD
                           FEBRUARY 12, 2016


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                     

                              _____________
                              
                              
                   U.S. GOVERNMENT PUBLISHING OFFICE
98-959                     WASHINGTON : 2016                   

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1176617e517264626579747d613f727e7c3f">[email&#160;protected]</a>  

                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
ELISE M. STEFANIK, New York, Vice    JOAQUIN CASTRO, Texas
    Chair                            TAMMY DUCKWORTH, Illinois
FRANK A. LoBIONDO, New Jersey        SCOTT H. PETERS, California
MIKE ROGERS, Alabama                 TULSI GABBARD, Hawaii
CHRISTOPHER P. GIBSON, New York      BETO O'ROURKE, Texas
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
BRAD R. WENSTRUP, Ohio
SAM GRAVES, Missouri
STEVE RUSSELL, Oklahoma
                Margaret Dean, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                        Katherine Rember, Clerk
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Readiness............................     1

                               WITNESSES

Goldfein, Gen David L., USAF, Vice Chief of Staff, U.S. Air 
  Force; accompanied by Lt Gen John W. Raymond, USAF, Deputy 
  Chief of Staff for Operations, and Lt Gen John Cooper, USAF, 
  Deputy Chief of Staff for Logistics, Engineering, and Force 
  Protection.....................................................     3

                                APPENDIX

Prepared Statements:

    Goldfein, Gen David L........................................    32
    Wittman, Hon. Robert J.......................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Courtney.................................................    59
    Mr. LoBiondo.................................................    59

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    64
    Mr. Gibson...................................................    67
    Mr. Wittman..................................................    63
 
 
 DEPARTMENT OF THE AIR FORCE 2017 BUDGET REQUEST AND READINESS POSTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                         Washington, DC, Friday, February 12, 2016.
    The subcommittee met, pursuant to call, at 8:04 a.m., in 
room 2118, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wittman. Good morning. I want to call to order the 
Subcommittee on Readiness of the House Armed Services 
Committee. I want to welcome everybody this morning. I thank 
our witnesses for joining us.
    Before we begin, I would like to recognize a number of our 
great young airmen that are here from Langley Air Force Base. I 
want to welcome you here to Washington. We appreciate all the 
Langley Air Force Association does. We have got a great working 
relationship there, as well as the Langley Civic Association.
    Taylor, thanks so much for your leadership there, and we 
appreciate that.
    I know that I have to compete with Ms. Bordallo, so Ms. 
Bordallo, is there anybody here from Andersen Air Force Base?
    Ms. Bordallo. Is there?
    Mr. Wittman. We have had a little competition going. 
Wherever we go, there is always somebody there from Guam, so I 
want to make sure that we had the opportunity to recognize them 
here this morning, but--yes, yes.
    Ms. Bordallo. Would you kindly stand up, please?
    Mr. Wittman. I knew it. I knew it. I knew it. She always 
does. She always does.
    Well, good morning. I want to thank all of you for being 
here for our Readiness hearing on the ``Department of the Air 
Force 2017 Budget Request and Readiness Posture.'' This is the 
first of four hearings on the services' budget request and 
readiness postures. And, in December and January, the services 
testified on increased readiness risks due to reduced 
installation investments. And, today, I look forward to hearing 
how the Air Force budget request enables a readiness recovery 
plan in where we continue to take risk.
    I would like to welcome all of our members and 
distinguished panel of Air Force experts. This morning, we have 
with us General David Goldfein, U.S. Air Force, Vice Chief of 
Staff; Lieutenant General John Raymond, U.S. Air Force, Deputy 
Chief of Staff for Operations; Lieutenant General John Cooper, 
U.S. Air Force, Deputy Chief of Staff for Logistics, 
Engineering, and Force Protection.
    Thank you all for testifying today, and we look forward to 
your thoughts and insights on these important issues. And the 
purpose of this hearing is for the committee to receive 
clarification on Air Force choices for its budget request; to 
address funding priorities and mitigation strategies; and to 
gather more detail on the current and future impacts of these 
decisions on operations and training.
    Once again, I want to thank our witnesses for participating 
in our hearing this morning. I look forward to discussing these 
important topics. And now I would like to turn to our ranking 
member, Madeleine Bordallo, for any remarks that she may have.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 31.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And, first, I would like to thank the witnesses.
    General Goldfein, nice to see you again.
    General Raymond and General Cooper and, of course, all the 
airmen that are here and committee people, good morning.
    I have no doubt that your testimony before our subcommittee 
this morning will prove insightful, and I thank all of you for 
your service to our Nation. The Air Force has been engaged in 
constant combat operations overseas for a quarter of a century 
while conducting global transport and mobile operations, and we 
know--we do know--that this has taken a toll on both our airmen 
and their equipment.
    You are accomplishing this feat today with a force that has 
considerably fewer personnel and aircraft than it did 25 years 
ago. Our forces continue to be deployed throughout the world, 
countering threats ranging from terrorist organizations to 
near-peer adversaries. The requirements placed upon the Air 
Force and our military as a whole can never be understated.
    Because of unreliable and unpredictable funding resulting 
from sequestration and numerous continuing resolutions over the 
past several years, you have had to maintain a delicate balance 
between readiness and modernization. At times, this balance has 
cost readiness, and the further we get behind this curve, the 
harder it will be for our force to recover to full-spectrum 
readiness.
    Through our discussion today, I hope that we can gain a 
better understanding of the Air Force's plan to maintain 
readiness through personnel, training, and infrastructure 
improvement. So, again, thank you all for your service, and I 
look forward to your hearing.
    And I yield back, Mr. Chairman.
    Mr. Wittman. Thank you so much.
    I am going to go now to General Goldfein. I understand that 
you will be providing the statement for the panel.
    I just want to remind our panel members, too, that all of 
your statements will be entered into the record, so we will 
have that, and if you would like to add anything, we can do 
that through the questioning period.
    So General Goldfein.

STATEMENT OF GEN DAVID L. GOLDFEIN, USAF, VICE CHIEF OF STAFF, 
 U.S. AIR FORCE; ACCOMPANIED BY LT GEN JOHN W. RAYMOND, USAF, 
 DEPUTY CHIEF OF STAFF FOR OPERATIONS, AND LT GEN JOHN COOPER, 
  USAF, DEPUTY CHIEF OF STAFF FOR LOGISTICS, ENGINEERING, AND 
                        FORCE PROTECTION

    General Goldfein. Thank you, Chairman Wittman, Ranking 
Member Bordallo, and distinguished members of the subcommittee. 
On behalf of our Air Force Secretary, and Chief of Staff, it is 
an honor to be with you today and a privilege to sit beside 
these two great airmen and in front of these incredible airmen. 
Together, we are honored to represent the 660,000 total force 
airmen serving today, and we request that our written statement 
be placed in the record.
    A little over 25 years ago, then Captain Dave Goldfein 
piloted an F-16 fighter on my first sortie in the opening hours 
of Operation Desert Storm. During the 100-hour ground war that 
followed the air campaign, the Air Force, along with our fellow 
joint and coalition partners, provided the same blanket of 
airpower that had shielded U.S. forces since April of 1953, the 
last time an American service member was killed by enemy 
aircraft.
    In addition to providing top cover, America's airmen 
defended the base perimeter, refueled and maintained aircraft, 
controlled air traffic, managed supply lines, tended to our 
wounded, air dropped humanitarian aid, and supported the joint 
team with global vigilance, reach, and power. To many Americans 
and to others across the globe, Operation Desert Storm set the 
standard for American airpower, and it is what they remember.
    In the quarter century since Desert Storm, your Air Force 
has remained engaged in combat operations without respite. As 
we sit here today, airmen are standing watch over our nuclear 
enterprise, and they are conducting the lion's share of strike, 
air refueling, and intelligence, surveillance, and 
reconnaissance sorties over Iraq and Syria.
    However, 25 years of continuous combat operations, coupled 
with budget instability and lower than planned top lines, have 
made the Air Force one of the smallest, oldest, and least ready 
forces in its history. To put our relative size, age, and 
readiness in perspective, in 1991, we deployed 33 of our 134 
combat-coded Active, Guard, and Reserve fighter squadrons in 
support of Operation Desert Storm. We were 946,000 airmen 
strong. The average age of our aircraft was 17 years, and 80 
percent of the fighter force was ready for full-spectrum 
conflict.
    In contrast, today, we have just 55 total force fighter 
squadrons and approximately 660,000 total force airmen. The 
average age of our aircraft is 27 years, and less than 50 
percent of our combat Air Force is ready for full-spectrum 
conflict. Couple this significant readiness reduction with a 
rising China; Russian aggression in Eastern Europe and Syria; 
Iranian malign influence in the Middle East; North Korean 
nuclear and space ambitions; and our ongoing fight to degrade 
and ultimately destroy ISIL [Islamic State of Iraq and the 
Levant], and you have an Air Force that is too small, too old, 
and less ready for what the Nation requires.
    Simply put, if we are to remain the most lethal and 
effective air, space, and cyberspace force on the planet, we 
must take steps to rebuild our readiness now. In order to 
accomplish this goal, the fiscal year 2017 budget aims to 
build, train, and equip an Air Force capable of responding to 
today's and tomorrow's threats. It balances capability, 
capacity, and readiness in support of our five core missions: 
air and space superiority; intelligence, surveillance, and 
reconnaissance [ISR]; rapid global mobility; global strike; and 
command and control.
    Our number one priority is our nuclear mission, and our 
budget reflects this importance, including investments in ICBMs 
[intercontinental ballistic missiles]; command, control, and 
communications; as well as B-2 and B-52 bomber modifications. 
The F-35, KC-46, and LRS-B will change the calculus of any 
potential adversary and will be critical to success in any 
future high-end fight.
    For an Air Force, failing to push the technological edge 
equals failure, and when the Air Force fails, the joint team 
fails. Our fiscal year 2017 budget request includes the funding 
required to recover the manpower needed to ensure the health of 
our nuclear forces, aircraft maintenance teams, battlefield 
airmen, and other critically undermanned and overtasked career 
fields. This budget marks the return of a committed investment 
to global vigilance, global reach, and global power for 
America.
    A return to BCA [Budget Control Act] level funding in 
fiscal year 2018 will further decimate our readiness and 
modernization and will place the Nation at unacceptable risk.
    Mr. Chairman, decisive air, space, and cyberspace power and 
the ability to command and control these forces have become the 
oxygen the joint force breathes and are fundamental to American 
security and joint operations.
    The fiscal year 2017 President's budget and the flexibility 
to execute it, as we have recommended, is an investment in the 
Air Force our Nation needs. America expects it, commanders--
combatant commanders require it, and with your support, our 
airmen will deliver it.
    On behalf of our Secretary, our Chief of Staff, and the 
660,000 Active, Guard, and Reserve airmen who give our service 
life, thank you for your tireless support, and we look forward 
to your questions.
    [The prepared statement of General Goldfein can be found in 
the Appendix on page 32.]
    Mr. Wittman. General Goldfein, thank you so much. Thanks 
for your testimony, and thanks for your commitment, as well as 
all the other airmen in getting our Air Force back to where it 
needs to be.
    I want to ask, in that context, where we are in restoring 
readiness. We know that the rebuilding point for readiness is 
set for the Air Force essentially at fiscal year 2020. So if 
you can give us some perspective on, staying on that glide path 
and based on what the budget request is this year and the 
resetting, beginning as a benchmark in 2020, how far are we 
going to be able to go in restoring Air Force readiness? And 
give us some ideas of the timeframes.
    And, along the way, obviously, you are going to have to 
make some tough decisions about risk. Tell us what core 
functions you will have to make some tough decisions about 
where risk will be placed in this readiness recovery effort.
    General Goldfein. Thank you, sir. So we have stated 
previously that our readiness recovery plan is dependent on a 
couple of key variables. The most important is a reduction in 
deploy-to-dwell time, which actually allows us to have the time 
to do the training that we need for high-end conflict. That is 
something, quite frankly, that we really can't control, given 
the global situation. And while we are incredibly proud of the 
fact that airpower is a requirement in all of the contingencies 
that we face, both current and potentially in the future, it 
has resulted in a demand signal that has reduced our ability to 
do the high-end training we need.
    So while we testified previously that we believed that we 
would be able to achieve full-spectrum readiness on a given 
date, it is actually a rolling timeframe, and as our Chief and 
Secretary have testified, it is about an 8- to 10-year 
timeframe when we actually get the conditions set to be able to 
rebuild that readiness.
    So we--and the last time we testified and we said 2025 was 
about what we were targeting, that was based on some 
assumptions that haven't panned out.
    Mr. Wittman. Right.
    General Goldfein. Some of those assumptions were that we 
wouldn't be increasing our activity in the Pacific, that we 
wouldn't be increasing our activity in Europe, and that we 
wouldn't be increasing the activity that we are now seeing in 
Iraq and Syria.
    So as long as that activity continues and that demand 
signal is there, what you will see from us is a continual 
rolling 8- to 10-year cycle to get to full-spectrum readiness.
    Our prediction right now is that for the next 2 to 3 years, 
we will probably just be able to hold our own in terms of our 
current state of readiness, and as the Chief and Secretary have 
testified, where we currently sit and where I mention in my 
opening statement is we are approximately 50 percent ready 
across the total force for full-spectrum conflict.
    Mr. Wittman. Does your 2017 budget request, does that 
reflect maintaining the necessary effort in core functions 
going forward? And, secondly, does 2017 budget, does that help 
you in setting the conditions for restoring readiness? And if 
not, where are the shortfalls or the things that we need to 
consider as we develop the policy to lay the framework for 
appropriations?
    General Goldfein. Thank you, sir. So when we submitted this 
budget, we worked to get the best balance we could, given the 
top line we received, between capability, capacity, and 
readiness. And so what you will see in the readiness accounts 
is that we actually funded our readiness accounts to the 
capacity that we can generate.
    And so that, with the addition of OCO [overseas contingency 
operations] funding on top, we are actually able to fly to the 
capacity that we can generate. You had asked before about the 
core functions or about, you know, where we are taking the 
greatest risk. The two core functions of our five where I 
believe we have the greatest risk are in air and space 
superiority and global strike. And the reason for that is that 
is where we have to train to the high-end fight against a peer 
adversary, and that is where we are just not getting the down 
time to be able to train to that level.
    So when we talk about the combat Air Forces and we talk 
about gaining and maintaining air superiority, that requires 
training at a very high level against sophisticated adversaries 
and their capabilities, and that is where we are struggling to 
be able to find the time to do that.
    Mr. Wittman. Thank you.
    Thank you, General Goldfein.
    I am going to go now to Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    General, the Air Force is facing a modernization bubble 
with several major projects competing for budget space as 
evidenced by the F-35 procurement decrease this year and over 
the coming years.
    What is the one thing that Congress can do to improve Air 
Force readiness while addressing the modernization changes?
    General Goldfein. Yes, ma'am. So, first, let me tell you 
that you will hear a consistent answer from me in terms of what 
Congress can do, and that is, repeal BCA, because when we go 
back and take a look at what happened to your United States Air 
Force in 2013, when we were sequestered, it devastated our 
readiness, and quite frankly, we are still recovering.
    So now I want to take a look at the budget that we have 
submitted. We did have to make some strategic trades between 
modernization and readiness, and like I said, first of all, we 
funded to our capacity, our current capacity in the readiness 
accounts, but to do that, we had to take some risk in 
modernization that we did not want to do. Deferring F-35 
procurement, deferring C-130 procurement, pushing to the right, 
you know, modernization of our fourth-generation aircraft--all 
required for that high-end fight--are all risk trades that we 
had to make to be able to keep our readiness accounts at 
capacity.
    Ms. Bordallo. Thank you. Another question I have. The Air 
Force has been a leader in advocating the total force concept, 
integrating the Active and the Reserve Components.
    General, what opportunities do you see in this and future 
years for leveraging the cost-saving nature of the National 
Guard to contribute to increase readiness, and where can 
Congress play a role in facilitating these engagements?
    General Goldfein. Thanks, ma'am, for an opportunity to 
showcase our Guard and Reserve. You know, we are one force, one 
Air Force, and all three components are actively participating. 
As the former Air Component Commander for Central Command, I 
travelled around the region, as you might imagine. And it never 
ceased to amaze when I would go up in the cockpit of a C-17 and 
one of the questions I would ask is: Okay, which one of you is 
Active? Which one of you is Guard? And which one of you is 
Reserve? And I would often have all three in the same cockpit 
performing that mission. That just gives you one vignette of 
just how closely integrated we are across the force.
    So where we continue to look for opportunity is where we 
can leverage, very often, the higher experience level and the 
stability in the Guard force, in our Reserve force as we look 
to continue to associate in ways that can bring more and more 
capability to the fight.
    The Secretary, in her testimony previously this week, made 
a comment that one of the activities we are looking at is how 
do we take the large number of Active Duty service codes that 
are out there and start combining them to make it easier for 
folks to come into the Guard, Active, Reserve and be able to 
transition between those components so that we can actually 
leverage the most that we can from the individual components.
    I will just give you one quick vignette. So our Chief 
Master Sergeant of the Air Force came back from a visit to 
Lewis-McChord up in Washington, and he noticed a young senior 
airman driving to work in a Tesla, and so he pulled the airman 
over aside and said, ``Okay, you know, talk to me, how is 
this?''
    And he said, ``Well, sir, I'm actually in the Air National 
Guard, but when I am not in the Air National Guard, I am the 
director of security for a Fortune 500 Silicon Valley tech 
company, but I also want to serve. And so when I'm not working 
security for this particular company, I am a senior airman, and 
I am doing cyber business for the United States Air Force.''
    We want to make that easier, and so anything that Congress 
can do to help us to be able to make that continuum easier 
would be extremely helpful, and that is what we want to 
leverage.
    Ms. Bordallo. Thank you very much. And I have another one, 
final question for you, General, and I will also say that we, 
as Members of Congress, whenever we travel on our CODELs 
[congressional delegations], when it is a MILAIR [military 
airlift] operation, the Guard is there for us and doing a great 
job.
    The budget request indicates that the Air Force will 
continue to take risk in facility sustainment, restoration, and 
modernization [FSRM]. What impacts will reduced FSRM spending 
have on our airmen's day-to-day quality of life and activities?
    General Cooper.
    General Cooper. Congresswoman Bordallo, I would like to 
field that. The simple truth is: there is not enough money to 
go around. So we did--this budget request does take risk in our 
installations. That is really where we take the risk, at the 
expense of modernization and readiness. So the--what you will 
see as you dive into the budget is that we have constructed our 
installations around military construction and around FSRM, 
facility, sustainment, restoration, and modernization.
    Based on the pause in 2013, we have to get at construction, 
so we focused--we put more money into our military 
construction, and we put less money into our restoration and 
modernization. We kept the same amount, roughly the same amount 
in sustainment because we have got to keep the buildings 
moving.
    That does push us into a strategy of worst first. We have a 
backlog of like $12 billion in facility restoration and 
modernization projects, so we are addressing the worst first. 
The worst first focuses around the mission, so, unfortunately, 
quality of life is competing against mission requirements, and 
we are opting for our mission requirements.
    So, internally, we are working processes on those core 
services to make sure our airmen can get the best we can give 
them, things like child development centers, things like 
gymnasiums and fitness centers and dining facilities. We are 
using transformational efforts to make sure that we can expand 
hours, provide those services so the airmen can conduct the 
mission.
    But at the funding level we are at, we have to focus on 
modernization and readiness.
    Ms. Bordallo. Well, thank you, gentlemen, and thank you for 
your candid answers to our questions.
    And I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Bordallo.
    We will know go to Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here and for your service, 
and I just wonder, is that plane still flying? What were you 
flying 25 years ago, and is that one still in the air?
    General Goldfein. I am being told it is now being used for 
an unmanned drone. I am hoping not.
    Mr. Scott. But it probably still is in the air. It is 
something most people don't recognize is that while we had that 
many decades edge 25 years ago, the fact that we haven't 
recapitalized has given our adversaries an opportunity to maybe 
not catch us but get a lot closer to us.
    I want to talk to you about the JSTARS [Joint Surveillance 
Targeting and Attack Radar System], which is an ISR platform 
that flies out of Warner Robins. Obviously, there is some money 
in the budget this year for it. There was more money last year 
for it. I am concerned about the reduction in that, but the 
recapitalization of the JSTARS fleet has continued to push a 
year here, a year there, and when I look at the charts that 
show what is going to happen with our current planes that are 
flying, when they go in for depot maintenance, we are going to 
end up with a capability gap that is going to force us to 
either keep very, very old planes, much older than the ones 
that you were flying 25 years ago, in the air or not be able to 
provide that--the moving target indicator and the battle 
management platform to the forces that need it on the ground.
    The other aspect that I see is that the new system would 
save a tremendous amount of money on an annual basis. It is a 
new plane, much more efficient, can gather more data at one 
time, and I just don't understand why a program that uses 
existing mature technology that is relatively inexpensive 
compared to the other platforms that we talked about with 
regard to the recapitalization, has taken so long to deliver, 
and my question is, what are the plans for the capability gap 
that is going to exist when the current planes, which are many, 
many decades old, go in for depot maintenance if the new planes 
are not ready to go? And what plans would you have for 
accelerating the timeline to make sure that we don't have those 
capability gaps?
    General Goldfein. Thank you, sir. So when we went--when we 
were in--as we have been in discussions about JSTARS, part of 
the discussion has been, do we shift to an unmanned versus a 
manned--large aircraft manned platform. We went out to the 
combatant commanders. The Chief of Staff of the Air Force went 
out to every combatant commander to revalidate individually the 
requirement for airborne battle management as a critical 
component of their war plans, and that was validated across all 
of the combatant commanders.
    That is important because very often when we talk JSTARS, 
we start talking about the sensor, but I would argue that the 
most important thing that JSTARS brings is airborne battle 
management. As the Air Component Commander for Central Command, 
I will tell you that I use that platform in a number of ways, 
in addition to what is traditionally considered, you know, 
airborne battle management of the air-to-ground fight. I used 
it on the naval--in the maritime domain covering the Strait of 
Hormuz.
    So, first and foremost, we have validated that airborne 
battle management is a critical requirement for the combatant 
commanders, and we need to move out on that. Now the challenge 
becomes a technology discussion, which is, at what point do we 
transition and can we transition this to an unmanned platform 
of the future versus a manned platform? And the reality is, is 
the technology that we would need to put on an unmanned 
platform doesn't currently exist to get the same capability 
that we provide to combatant commanders today. It is just not 
miniaturized enough. It just can't give the same level of 
fidelity of the ground moving target indicator that the JSTARS 
does today.
    So the Air Force's position, for two reasons. One, we don't 
have the technology to put it on a manned platform, and two, 
airborne battle management is the critical requirement. We need 
to push forward with a manned airborne platform. We have the 
funding in this budget to do that.
    But that dialogue has slowed us down. And then I will turn 
to General Cooper to talk about covering the gap in the middle.
    General Cooper. Yes, sir. I mean, the JSTARS got its--it is 
an old airplane, 47-years-old, and we are having structural 
issues. And as you know, 50 percent of the airplanes are in 
depot, and the depot takes longer to keep them going, but that 
is emblematic of really our larger fleets, right, is we have to 
recapitalize our fleets.
    We have a number of fleets that are almost as old as 
JSTARS, and we just have to keep on recapitalizing our fleets.
    Mr. Scott. Well, thank you for that. The JSTARS fleet is a 
relatively small fleet, though, and the total cost for 
recapitalization is significantly less than it is for most of 
these other fleets, and it is--it seems to me that if we could 
push forward with an aggressive rapid acquisition process, that 
we could get newer planes, better technology that are going to 
save us money on an annual basis. And instead of spending so 
much money on depot maintenance for planes that we know we are 
going to pull out as soon as we have a new platform, why not 
push this thing up?
    I mean, we are talking about--we are talking multibillions 
for a lot of platforms, hundreds of billions, and this is not 
one that costs anywhere close to what most of the platforms 
cost. And, as you said, it can't be done with any other 
platform, the battle management aspect of it, so thank you for 
your service and----
    Mr. Wittman. Thank you, Mr. Scott.
    We will now go to Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to the panel for being here this morning.
    General, last year's NDAA [National Defense Authorization 
Act], we came up with a pretty good arrangement for the C-130 
modernization with the new AMP 1 [Avionics Modernization 
Program] approach that hopefully is going to short-circuit some 
of the problems that existed before.
    On page 14 of your testimony, you mention the C-130 
modernization. I just wonder if you could just sort of talk 
about what is in the budget. I mean, it seems like a relatively 
small number for 2017, and 2020, as you know, is coming up fast 
for the global navigation requirements, so I was wondering if 
you could elaborate.
    General Goldfein. Yes, sir. Thank you. So we have broken up 
the AMP program into, as you know, two increments. So Increment 
1, which actually makes us--makes the C-130 capable of flying 
in all the international airspace and meets FAA [Federal 
Aviation Administration] requirements. The previous budget, we 
actually had that completing in 2022. We were able to, in this 
budget, actually accelerate that to 2020, which allows us to 
actually be in line with the expectations for the FAA on being 
AMP 1 compliant by the timeframe they have given us. So that is 
first.
    We have also been able to fully fund Increment 2, which 
actually does the physical upgrades to the C-130, and that will 
now complete in 2028. So we feel pretty good about the AMP 
program right now. We have actually--Chief of Staff has led an 
effort through our total force to talk to all of the States 
that have C-130s. All of the adjutant generals are part of this 
plan. When we work through the C-130 issues, we actually have 
that dialogue with them so they are part of the process. So, 
right now, going into this budget, we feel pretty good about 
the program.
    Mr. Courtney. And, again, I am sure, you know, later in the 
process, we are going to have more conversations about this 
with you and your team. It is just--so is there any space or, 
you know, possibility that Congress can help in terms of 
accelerating it more or, you know, flexibility in the 2017 
budget to help, again, push this along?
    General Goldfein. Sir, we will take that one to see if 
there is any kind [of] help we would require from Congress.
    [The information referred to can be found in the Appendix 
on page 59.]
    General Goldfein. Right now, we feel like the program is 
pretty well funded for what industry can support. I will tell 
you where we could use your help, though, and that is, you 
know, we had to take some decisions--make some decisions to 
delay critical modernization to be able to pay readiness and 
get the balance in this budget.
    One of the decisions we made was to defer some C-130J 
procurement, and so any help we could get to bring those back 
would be very much appreciated.
    Mr. Courtney. Thank you very much, General, and again, to 
all the witnesses for your service.
    I yield back.
    Mr. Wittman. Thank you, Mr. Courtney.
    We will now go to Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    I thank the panel, and thank you for your service.
    For General Goldfein. General, in procurement line 22 of 
the aircraft procurement account for F-16 AESA [Active 
Electronically Scanned Array] radars, the Air Force requests 
and states an expedited delivery schedule. It is imperative to 
operationally field the AESA radar in support of homeland 
defense against evolving threats.
    Can you please update the subcommittee on how the research, 
design, test, and evaluation as appropriated in last year's 
omnibus is progressing? What phase are you currently in? And 
how will this be completed? And when do you foresee an award 
coming?
    General Goldfein. Thank you, sir. As you know, we, the 
Department, originally pursued a joint urgent operational need, 
a JUON, from the supporting combatant commander, NORTHCOM 
command [U.S. Northern Command] in this case, to be able to 
procure the AESA radars for those F-16s that we use to do 
defense of the National Capital Region [NCR].
    What a JUON does for us is allows us to actually go sole 
source, which speeds up the acquisition process. That JUON was 
not supported, so, therefore, we are now in a competition for 
those radars.
    The Air Force fully funded 24 of those sets to be able to 
take care of those aircraft that are part of the NCR. But now 
what we will need to do and what we are pursuing is an 
acquisition strategy that allows competition for those 24, and 
the money has been laid in for that.
    The remainder of the fleet will also be able to go into a 
full and open competition so that we can continue to modernize 
the remainder of the F-16 fleet with AESA radars, but we do 
have a strategy to get up to 24, although we are not able to go 
sole source at this time.
    Mr. LoBiondo. So you are attempting to expedite or----
    General Goldfein. Attempting to expedite, but we have to 
follow the acquisition rules for competition, but the money has 
been laid in for those 24.
    Mr. LoBiondo. I recently received word that the Ops 5 and 6 
for the F-35 Air National Guard basing decision criteria, has 
been pushed back to later in the spring of 2016. Can you update 
the subcommittee on how that is progressing?
    General Goldfein. Yes, sir. So, as you know, we build our 
basing process so that we can be, you know, fully open and 
transparent with all of Congress to ensure that not only do you 
see the criteria but that you see how each base scores out in 
that criteria.
    So what we are looking at right now with the F-35 Ops 5 and 
6 is: What criteria now do we need to make sure that we have 
ready to go? As soon as that criteria is ready, we will then 
put that out, and then we will start the process that goes 
through not only setting the criteria but then actually then 
scoring a certain number of bases against that criteria, 
sharing with Congress how that scoring occurred, and then 
making the final decision that the Secretary makes in terms of 
what that basing will be.
    Mr. LoBiondo. Do you have any idea of timeline on that of 
when we are going to get to see any of that?
    General Goldfein. Let me see if we have all that. Sir, can 
we take that one, and we will get it back to you?
    [The information referred to can be found in the Appendix 
on page 59.]
    Mr. LoBiondo. Sure. I, obviously, have a great interest in 
that. I like to think that I represent, if not the, one of the 
premier homeland security bases in the country because of our 
strategic location to New York and to Washington, and we think 
fair, objective, and transparent, we would score really well in 
that.
    General Goldfein. Yes, sir.
    Mr. LoBiondo. Okay.
    General Goldfein. And we will try to get that answer to 
you, I think, even before this hearing ends, if we can.
    Mr. LoBiondo. Okay.
    Thank you, Mr. Chairman. I yield back.
    Mr. Wittman. Thank you, Mr. LoBiondo.
    We will now go to Mr. Peters.
    Mr. Peters. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here. I wanted you to 
expand on training a little bit in two respects. One is, I 
would like you to explain why it is that a delay in the annual 
budget for--or diminishment in the annual budget for training 
lasts beyond the year. I think people don't often understand 
that there is a permanent effect to underfunding training year 
to year. I also wanted you to address sort of your sense of 
how--what--any additional challenges for the training budget 
are posed by the addition of new airframes like the F-35.
    General Goldfein. Thank you, sir. So, first, on the delay 
and the lag effect that goes into training. So the way we do 
our flying hour program is we budget in 2-year cycles, as you 
know, sir. And so we project in the future how much we think we 
are going to fly in contingency flying, and given the capacity 
of any weapons system--take the F-16 and Block 50 as an 
example, that is designed for suppression of enemy air 
defenses, so very high-end fight-centered focused community. So 
we look at all of the capabilities in that way to--in our 
weapons system to produce flying hours, and that is a fixed 
capacity. And then we project how much of that we think in that 
weapons system will be flown down range, and that becomes part 
of what we call the OCO.
    And so what--you can't go up because that is the fixed 
capacity of the weapons system, so the only thing that can 
happen with that is that you project--what you project doesn't 
pan out and the assumptions change. And what we found year 
after year is that we actually fly more down range activity 
than we have left for home station training.
    So what that means in the Block 50 F-16, for instance, is 
that air crew that are supposedly--that are trained and 
designed to do high-end peer-to-peer conflict in a contested 
environment are actually focusing more and more of their 
training on the lower end close air support violence extremist 
fight. So they lose their skills over time, and you can't build 
those back immediately because you have got to build them back 
so that they can be in a--that community, they have to be 
wingmen. They have to be flight leads. They have to be 
instructors. They have to be certified for all of those. The 
less amount you have to train to that high-end fight, the less 
readiness that you have, so it actually takes you more and more 
time to actually build that back.
    When it comes to bringing the F-35 and other weapons 
systems, the challenge for us and both the challenge and the 
asymmetric opportunity is that we approach joint warfare from a 
networked perspective. And the vignette I would share with you 
is, you know, I flew the F-117 as the last pilot, and when I 
took off and flew the F-117--first-generation, low-observable 
[LO]--it was a very closed system approach to using LO. I mean, 
I actually had a switch that would turn everything off, you 
know, all of the sensors would stow, and I would, you know, 
lower my seat and go to work.
    In the F-35, when you power up the aircraft, it starts 
doing machine-to-machine collaboration and discussion on the 
initial power up, and it starts comparing amongst it, in the 
network, and it is talking through air, space, cyber. It is 
doing the full-spectrum look, and it is doing a human-machine 
collaboration that actually places symbology on the visor of 
that aircraft.
    And so it is a very networked approach. So when we bring 
the F-35, the F-22 on, it is about the networked approach to 
warfare, and that makes it its own training challenge because 
we have got to be able to simulate that entire network and go 
to training as opposed to a single aircraft going out and 
training on a range.
    Mr. Peters. Just sort of--I know quantitatively, just how 
short are we, given that we have been lagging a little bit 
already?
    General Goldfein. So, as I testified earlier, we are at 50 
percent or less in overall full-spectrum readiness across the 
Air Force, and that vignette I share with you in terms of the 
fact that we are not training at this level, that is exactly 
what that means, meaning that we are not able to train to the 
suppression of enemy air defenses mission because we are using 
that weapon so much in the fight against ISIL.
    So, at 50 percent readiness, the challenge is, if you look 
at what our Secretary of Defense has laid out as the major 
strategic challenges that we face, China, Russia, Iran, North 
Korea, and a condition of violent extremism that we will likely 
have to deal with in the next decade, that covers the spectrum 
of the potential conflict that we may face. So if we, as an Air 
Force, are 50 percent ready, what we are saying is we are 50 
percent ready against the higher end threats.
    Mr. Peters. And, General, I just want you to know that is 
something that has been on my mind since I have been on this 
subcommittee, and it is something that is not easily observed, 
and so I wanted to take a little time to draw it out. I 
appreciate the emphasis on it, and I hope we can be responsive. 
Thank you again for your testimony and your service.
    I yield back.
    Mr. Wittman. Thank you, Mr. Peters.
    We will now go to Mr. Bishop.
    Mr. Bishop. Thank you.
    General, I appreciate the opportunity of being here.
    Mr. Wittman, I appreciate you having a hearing at 8 a.m. in 
the morning. I realize you think there are no other issues that 
conflict with that. There is one. It is called my mattress. I 
wish you would get one that is comfortable for you so we 
wouldn't be doing this.
    And, General, can I also just--before I ask a question, 
just say one thing. Your complaints about the BCA are spot-on 
accurate, but it is too narrow. There were four other cuts in 
addition to that, as well as the 25 years of constant combat 
flights you had to do. You add all those things together. So 
when you have the criticisms, don't just narrow it to that one 
aspect. There are other things that have screwed you up in 
addition to that, much broader than that.
    Can I ask you a question, though? You did mention in the 
written testimony about Hill, which is important to me for 
obvious reasons. I do have some concern over the transition 
that is going forward, especially as we look in what is going 
in the future.
    Is there any concern--because the 388th is a combined 
unit--is there any concern you have with the Reserve unit 
there? Are they going to be tasked more or less in the future?
    General.
    General Raymond. Thank you.
    Congressman Bishop, thanks for the question. The Reserve 
Component at Hill, like all of our Reserve Components, is 
critical to our force and great, great partners. We do have a 
transition plan. Those F-16s will be transitioning in the 2018 
timeframe, and what we have done in the--to fund that 
transition is to put some funding in to make sure that those 
aircraft can be flown while we are waiting for the transition.
    Mr. Bishop. But the maintainers are still going to be a 
problem that has to be dealt with.
    General.
    General Cooper. If I can field that, Congressman Bishop.
    Yes, maintainers are a problem in our Air Force. We have 
taken great steps to make sure that we are going to transition 
well to IOC [initial operating capability] for F-35, but I am 
concerned on any F-35 beddowns after IOC. We are 4,000 
maintainers short in our Air Force. We are focusing on Hill 
right now to make sure that we can get the maintainers for IOC, 
so, right now, at Hill specific, we moved--as you know, the 4th 
Fighter Squadron came back recently. We moved those maintainers 
over to begin training for F-35, and we received--we have six 
airplanes there. I will be out there next week making sure we 
get IOC right.
    And then we are--the Reserves are taking care of the F-16s. 
When the 421st Squadron comes back, the same will occur. Those 
maintainers will move over to F-35, and then the Reserves will 
manage the F-16s.
    Mr. Bishop. That still seems to indicate there is going to 
be a greater emphasis put on the Reserves taking more capacity.
    General Cooper. Yes. The Reserves will--we are going to let 
the Reserves work on the--use those aircraft at Hill Air Force 
Base until transitions in the following years.
    Mr. Bishop. Can I transition just slightly and see if you 
can do this because I do have a concern about hiring practices? 
I wonder if the Air Force is going into that. I mean, some of 
them are taking up to 160 days just to hire people.
    Is the Air Force looking at trying to devolve some of that 
authority, because once again, I think OPM's [Office of 
Personnel Management's] goal is like 80 days, which seems to be 
an outrageous goal, and if, indeed, you cannot hire those 
people, I understand you have to augment them with contractors 
which may--on the work lines--which may not necessarily be a 
cheaper way of doing it. So is the Air Force moving in 
something to try and deal with civilian hiring practices?
    General Goldfein. Yes, sir. As a matter of fact, our 
Secretary of the Air Force is leading that effort herself. She 
has tasked the--our A1, our Director of Personnel, to look at 
all of our policies across the Air Force relative to civilian 
personnel to see how we can speed up the process of hiring when 
we need to hire, especially for critical skill sets. She is 
also having us take a look at the continuum of service between 
the three components and allowing civilians to be able to come 
into the Air Force, especially where we need critical skills.
    The challenge we have, Congressman, as you know, is that 
most of the rules associated with civilian actually don't 
reside within the service. Most of those are above the service.
    So while we are looking at everything we can and why we are 
brushing all of our individual policies, it is really above us, 
and that is where we can probably use your help.
    Mr. Bishop. Thank you.
    Well, we will try and do that as best we can, help out. I 
appreciate your comments about fourth-generation modifications 
have been delayed. You were very clear on how the readiness 
capacity or capabilities are being lost. I also have a--that is 
not even a question. I am just saying it once again.
    I also have a concern of how it is affecting contracts, 
depot workloads, everything else. I have only got 20 seconds, 
so you don't need to respond to that, but thank you for your 
presence here. And, in an hour, I think I will be awake so I 
can understand what you actually said.
    Mr. Wittman. Thank you, Mr. Bishop. We will make sure that 
when we have an opportunity, we convene at a later time.
    Mr. Bishop. And then we will talk Indian bills after that.
    Mr. Wittman. Yes, we will. Yes, we will.
    We will now go to Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    I wanted to ask, General, about the nuclear cruise missile 
part of this budget, and I will tell you my limited 
understanding and some of my concerns, which should take no 
more than a minute, and then offer you the remainder to answer.
    My understanding is that this is a $30 billion price tag 
for a weapon that will be carried on the aging B-52 platform. I 
want to know: What would happen should we not pursue this 
strategy? What is the risk to the United States? And, two, what 
are your thoughts on the British decision a few years back not 
to pursue this as a strategy because of their concern that it 
would produce miscalculation and unintended consequences? And 
it kind of departs from traditional nuclear deterrence, where 
each side has a good understanding of the other's capabilities 
and their conditions for using them.
    And so if you would take the remaining 4 minutes to answer 
those concerns and tell us what would happen if we didn't do 
this and where we could apply those $30 billion if we didn't.
    General Goldfein. Thank you, sir. Just to talk about just 
the funding part of it right now, just to be clear. So the 
long-range standoff weapon that will replace our air-launched 
cruise missile is currently scheduled to be integrated not only 
on the B-52 but also on the B-2.
    So, for us, the way we look at this is it has to do with, 
you know, 21st century strategic deterrence and what the 
nuclear aspect of that is, and we, as an Air Force, we like to 
joke that we are responsible for three of the four legs, 
because if you add nuclear command and control, which we are 
responsible for, it is actually almost a leg in and of itself 
to ensure that we have assured communications.
    So, for us, it is about: How do we ensure that we have a 
reliable, assured, secure nuclear deterrent to be able to hold 
targets at risk so that we can show that we have that capacity 
and capability? And so there are a number of ways you do that.
    You do that through the bomber force. You do that through 
the, of course, the ground-based force, our Minuteman III, and 
then transition into ground--GBSD [Ground-Based Strategic 
Deterrence], and we also do that with the Navy, with our 
submarine force.
    And so, for us, when you take a look at the long-range 
standoff missile, it is about being able to have the right 
standoff to be able to actually go in to be able to service 
targets that the Commander in Chief may ask us to service.
    And so, when we look at it, we need to have both that 
capability, which is standoff, plus we need to have gravity 
capability, plus we need to have penetrating capability with 
gravity, which is why we are putting money into the B-61 as 
well, and we have to modernize the nuclear missile fields. And 
so that is why you see an increase of $4.3 billion in this 
budget to be able to modernize the nuclear.
    So what we would tell you is that we believe that is a 
critical component of the three legs of the triad.
    In terms of, you know, risk that we would have, in terms of 
employment, you know, modernization of a particular weapons 
system does not actually indicate that you would have--you 
would be more susceptible to use. That is a--purely a Commander 
in Chief decision. So we would say, as the employers of the 
nuclear enterprise, that we don't think it increases risk.
    So one of the areas that we are going to need help from 
Congress on is that if you take a look at the nuclear 
enterprise, most of it was billed in the 1940s and 1950s, and 
it is aging significantly, and we have some bills that are 
going to come due after this FYDP [Future Years Defense 
Program], in the 2022 timeframe, that are significant.
    So we are working within the Department to look at all 
aspects of the nuclear enterprise to ensure that we are putting 
the best dollar forward to ensure that we have a safe, secure, 
reliable, nuclear deterrent for the 21st century that has all 
three legs plus the command and control intact.
    Mr. O'Rourke. So you do not share the British concern or 
the concern of former Defense Secretary Perry about the risk of 
miscalculation or unintended consequences. You think this is 
the wisest use of that $30 billion.
    General Goldfein. Yes, sir, I do.
    Mr. O'Rourke. And if, for whatever reason, Congress were 
not to support that request, where would that--and still allow 
for that $30 billion to be used within the Air Force, where 
would that money go?
    General Goldfein. Sir, you know, to be honest with you, 
what we would do is we would take a look first at our 
stewardship of the nuclear enterprise, and so the first place 
we would look is, where do we need to place that within the 
nuclear enterprise as our number one priority for our service.
    After that, we would look at it like we look at everything 
else, which is we would look at a planning choice, you know, 
and we would look at the trades that we have to make between 
capability, capacity, and readiness, but I can assure you the 
first place we would look, it would be within the nuclear 
enterprise.
    Mr. O'Rourke. Thank you.
    Mr. Wittman. Thank you, Mr. O'Rourke.
    We will now go to Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman. I appreciate the 
panelists. Thank you for your service and your sacrifices and 
those of your family. My question has to do with joint 
interoperability, training, and readiness, and specifically 
with regard to the budget, if you could lay out where the 
commitments are in terms of Joint Forcible Entry exercise, how 
many commitments--how many rotations do you see this budget 
year, and then also commitments to the National Training Center 
[NTC] and the scope of that, and any other modeling and 
simulation for the year, if you can lay out where the budget 
is.
    General Goldfein. Thank you, sir. So, you know, 15 years of 
continuous combat has actually produced the most joint force in 
our history, and I can say that also personally, having been 
the Combined Forces Air Component Commander deployed for two of 
those years.
    So what we found is that our forces--soldiers, sailors, 
airmen, marine--who are down range are not only training but 
executing jointly every day, and then when we come back at all 
of our major training venues, if you go out and take a look at 
Red Flag at Nellis, Green Flag at Nellis, Cyber Flag, NTC 
rotations, air warrior rotations, you will have a joint element 
of every one of our exercises, and the service chiefs and the 
``3s,'' the Directors of Operation, work that hard every day.
    You know, we are very proud of the fact that when it comes 
to training of the United States Army and their Joint Forcible 
Entry capability, when it comes to especially airborne, that we 
provide the lift that they require to do that mission. And so, 
working with, you know, General Abrams in Forces Command and 
working with not only our Army but also our Marine Corps and 
Special Forces, what we ensure is that we understand the 
requirement for a number of jumps that we have to support, and 
then we look across our enterprise at the global mobility to 
ensure we have the C-17s and the C-130s and the H-60s that are 
required to be able to support those jumps.
    Mr. Gibson. You know, I appreciate that. And, as you know, 
and I thank you so much for the incredible career you have had, 
you know, the whole piece of it comes together with electronic 
warfare, with fighters, bombers, and command and control. So, 
specifically, the question is: How many Joint Forcible Entry 
exercises are in the budget for this year?
    General Raymond. We have really focused on putting 
resources to the training effort. In this program, the budget 
that was just submitted, we have over $398 million going to CAF 
[Comprehensive Airman Fitness] readiness training, which are 
those exercises which you talked about. We invested over $235 
million into our training ranges to make sure that those ranges 
are high-end capable, fifth-generation capable, to get the most 
out of those training events.
    We have also spent about $345 million on live, virtual, and 
constructive training, looking at, how do you do that better in 
the simulator to, again, to maximize those--maximize those 
training events?
    Mr. Gibson. So thank you. It sort of--and it may very well 
be my failing in not framing the question right, but I will 
sort of lay out a few points.
    You know, over the years, as we, you know, are working to 
sustain the joint piece of this, the forcible entry piece of 
this, we could have anywhere from 8, in some years 10, Joint 
Forcible Entry exercises. And, last I looked at it, I think we 
are down to about four a year. And I understand, I mean, the 
war has played a big role in that in terms of where the 
resources need to go, understandably.
    But, you know, this is among the reasons why, gentlemen, I 
would say, I am concerned about the decision the Air Force has 
taken with regard to the 440th [Airlift Wing at Pope Field], 
and the reason is, is we are all managing risk. Up here, we are 
managing risk. The Air Force is certainly managing risk. All 
the joint forces are managing risk, but among the things that 
the 440th could do is really allow for smaller units in the 
XVIII Airborne Corps to sustain. As was mentioned, you have a--
you take--justifiably you are proud of the fact that you do 
help the joint forces maintain their readiness. But it is 
especially difficult today, at the company and battalion level, 
to keep up on the eaches when it comes to their requirement 
knowing that the four major packages that we have, the Joint 
Forcible Entry exercise is important for exercising higher 
level staffs for integration, but it is getting tougher to, you 
know, the one-offs, the people who go to school and come back, 
and that was managed by the 440th actually being at Fort Bragg.
    General Goldfein. Sir, if I could just, very quickly, you 
know, our objective--and we are working this with the commander 
there, General Townsend, you know, we met with him regularly. 
Our objective is that when a soldier walks out to the flight 
line to get on a C-130 for a jump, he doesn't know that the 
440th is gone, because what we have done is we put an aircraft 
there, and he gets the training he needs. That is the 
objective.
    And so we do that for a number of bases around the world 
that do airborne and do training, and so we do that in Vicenza, 
in Italy, we do that across, so we think we have a good 
template for that. The Army leadership agrees, and so if we get 
this right, it will be transparent to your soldiers.
    Mr. Gibson. My time is expired.
    Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Gibson.
    We will now got to Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Good morning. You spoke a little bit earlier in your 
comments about the investment and the necessity of increasing 
cyber capabilities, and I am wondering if you can talk in a 
little bit more detail about two things, recruiting and 
retention. When we look at the talent that exists and the 
innovation and how quickly evolving this world is in the 
private sector, you know, what kind of creative efforts are you 
taking to be able to bring those folks in, to be able to work 
with us, as well as to retain them once they are there?
    General Goldfein. Yes, ma'am. Thank you. So we are working, 
quite frankly, very hard with an effort that the Secretary of 
Defense is leading called ``Force of the Future,'' and one of 
the elements of that is permeability and allowing easier access 
to the ingenuity and innovation that is in the private sector 
and the public sector to come into the military when we need it 
and vice versa, right, also sharing what talent and expertise 
and capability we have with the private sector. So we continue 
to look at those capabilities. And, right now, as an Air Force, 
our contribution to the cyber force is 39 teams. It represents 
about 30 percent, as you might imagine. It is about right for 
our contribution, 39 teams. So CYBERCOM [U.S. Cyber Command] 
has laid out three key mission areas they are responsible for: 
defend the Nation, defend the networks, support the combatant 
commanders. We have 13 teams that we are building to support 
each of those requirements in each of those mission areas, so 
13 times 3 equals 39, so that is where we get to. Right now, we 
sit at about 26 teams, and we are on track to complete our 
build of 39 by 2018. So we feel pretty good about where we are, 
where we are going. I will tell you that you can never stop 
looking at managing this talent because we have got to have the 
incentives in place for not only them to want to join us, out 
of more than just patriotism, but because we are a good place 
for them to reside because of how we take care of them and the 
value of their service, so those total force continuum measures 
that we are working on are going to be incredibly important.
    General Raymond. Another thing, if I could add, we have 
done a review of the retention across the cyber force, and we 
are not seeing retention issues with the cyber force. The 
retention levels mirror the rest of the Air Force. They are 
about equal. As General Goldfein mentioned earlier about with 
the vignette of the airman driving the Tesla, I think people 
join the Air Force for a reason. They want to serve their 
country, protect their Nation, and right now, we are not seeing 
those readiness challenges.
    Ms. Gabbard. That is great. Somewhat connected with that 
but really on the overall broader scale is, as you talk about 
the total force integrating the Guard and Reserves, how are you 
integrating those elements in your deployment-to-dwell ratio in 
a way that is sustainable for the future?
    General Raymond. Thank you for the question. We are a 
completely integrated force. As General Goldfein mentioned 
earlier, you go look in a cockpit, and you won't be able to 
tell the difference. There will be Guard, Reserve, and Active 
Duty all blended together, and that is that way across our 
service. When you look at the readiness levels across the 
service, we mirror each other because we operate together. If 
you look at the deployed as well, the same concerns are there 
with the total force as it is with the Active Duty force. We 
about mirror each other in readiness levels, and we watch that 
very closely, but we are the most integrated service with our 
Guard and Reserve, and they are critical partners to us.
    Ms. Gabbard. What is the deploy-to-dwell ratio now?
    General Raymond. Across the board, on average, it is about 
1:2.5.
    Ms. Gabbard. Okay.
    General Goldfein. Ma'am, could I also offer that at some 
point you do get to a capacity stop. So, regardless of how 
integrated we are, we still only have 55 squadrons to do the 
Nation's work. So, at that point, you actually can't get any 
more out of what you have already got. So that is why I go back 
to the point that we are actually too small and you are seeing 
us trying to build back up the force size and our capacity to 
do what we believe the Nation needs.
    Ms. Gabbard. Thank you.
    Mr. Wittman. Thank you, Ms. Gabbard.
    General Goldfein, in your testimony, when you spoke about 
the shortage on maintainers, I would like to get your 
perspective and a little more of a drill down as to the nature 
of that. And you talk about needing to use contract maintainers 
for your A-10s, F-16s, C-130s, in order to get people 
transferred over to spin up to maintain the F-35s. There seems 
to be another aspect to it, though, when you look at the nature 
of the shortage, and that is many of the shortages are 
occurring with your senior NCOs [noncommissioned officers] that 
are, indeed, your trainers for airmen coming in. Tell me: How 
do you address that, because that is a long-term issue? The 
short-term issue is contract maintainers, but the long-term 
issue is, as you bring new Air Force personnel in, how do you 
get them to stay in the Air Force so they can become that 
senior NCO that is a master maintainer but also the trainer for 
the new airmen that are coming into the Air Force? Tell me how 
you address that, because that wasn't related in your 
testimony.
    General Cooper. Chairman, I would like to answer that. So 
we are 4,000 maintainers short across the Air Force, and the 
issue is we are bringing two F-35s in a month, and each F-35 
requires 20 maintainers, so we add to that deficit every single 
month as we go forward. And, next year, it will be three F-35s. 
So we are addressing it fully on how can we grow our fleet. So 
what we have done to date is we balanced as much as we can 
safely do with our legacy fleets, even with our large 
airplanes, moving to fighters because it is most acute in the 
fighting Air Force, in our fighters. So we have moved like crew 
chiefs from C-130s, to F-35s. Congress authorized us to 
transfer up to 18 A-10s--36 A-10s to BIA [back-up inventory 
aircraft] status. We used 18 because we needed the capacity for 
the fighting force as well as the maintainers. We split the 
difference. Moved the maintainers to F-35s, so we have done as 
best we can there.
    We have offered numerous retention incentives to our older 
maintainers, our tech sergeants, and our master sergeants, our 
7-levels, so they will stay in and retain that training 
expertise. And we have seen some growth there. Up to a thousand 
maintainers have taken the retention bonus and have stayed in, 
which is good. But we are digging a continual hole as we go 
forward because we have the force structure that we are not 
able to divest, and we are growing F-35s.
    Internally, since 2013, we under-assessed our maintainers, 
so our new airmen coming in, it was a challenge. We had an $8 
billion challenge after sequestration going 2014 into 2015 on 
how to close that gap, and the first place that we went to, the 
easiest place to go to get dollars that quick that soon is the 
personnel account. So, unfortunately, we under-assessed in the 
maintenance. We are reversing that trend. We did it in 2015 at 
the expense of other critical AFSCs [Air Force specialty codes] 
and career fields in the Air Force. We are doing it in 2016 up 
to a thousand in fiscal year 2016 at the expense of critical 
career fields, not maintenance, in the Air Force, and this 
budget asks for a growth of maintainers in the 2017 budget. And 
part of that, an overall growth for the Air Force, a large part 
of that is maintenance.
    The initiative we just started was looking at the contract 
maintenance in areas across the Air Force where there are not 
combat-coded units. They are mostly training units. They don't 
have a deployment requirement. And we feel that we can 
contract, if the market is right, we can contract in those 
locations, take those maintainers and move them to F-35s. But 
that is a challenge, that is just a short-term challenge, and 
we need to continue to grow, and really that only gets us about 
2 years, and we will have the same problem in 2 years.
    Mr. Wittman. It just seems like a cascading effect, 
especially across the MOSes [military occupational specialties] 
for your maintainers at every level of experience there.
    General Cooper. It is. We are challenged in our, especially 
in our fighter fleets. We have six career fields that are below 
1:2 dwell, meaning they are slightly at home slightly longer 
than they are deployed today on legacy.
    General Raymond. I would just add that when we look at 
readiness and the impact of that, we have critical skills 
availability as a key piece of that readiness, and it is not 
just the numbers of people, but it is the right level of 
people, as you mentioned, Mr. Chairman. That is why it takes 
some time to grow that readiness. We have made that initial 
investment, and we bring new airmen into the Air Force, but it 
will take 5 years or so to grow those to a level where we have 
the senior leadership that we need to build that readiness back 
up.
    Mr. Wittman. I just want to make sure that we reflect the 
proper policy so you can continue to grow both the capacity and 
the capability. It has to be grown on both levels. Let me ask a 
quick question about a comment that you made in your testimony 
about infrastructure and capacity and excess capacity. As you 
know, we look at that, there was a requirement from last year's 
NDAA for each of the service branches to provide a report back 
to Congress concerning capacity issues, overcapacity, excess 
inventory, those kinds of things, as well as what we had 
hearings on earlier, and that is: What are we doing to support 
the existing critical infrastructure and facilities support, 
which is one of the elements of what we use to generate 
readiness?
    One of the concerns I have going forward is to make sure 
that we don't get too shortsighted, because everything we have 
done recently has been very shortsighted. What do we do to make 
it to the next budget year? What do we do to move money around? 
And I understand the immediate need to try to generate some 
dollars and the dollars that come out for older facilities. And 
I think that there is a logical way and a risk way to do that. 
My concern is this: on the other side, too, the Air Force with 
its assets is going to continue to grow. We are going to have 
new fighter aircraft coming on board and new Long-Range 
Strategic Bomber, a new tanker fleet, that lift capacity that 
is there, even a few more C-17s, modernized C-130s. So there is 
a need for infrastructure to support that. So my concern going 
forward is saying: Well, let's reduce base structure or that 
infrastructure. We know we need that to generate readiness in 
the support aircraft as it comes on. I want to make sure that 
those two curves don't cross each other, and then we come back 
and say: Guess what, now we have more aircraft than we have 
facilities necessary to keep the aircraft and maintain them. 
So, in my idea, how do you find the right balance in saying we 
need a BRAC [Base Realignment and Closure] in light of saying 
we have got to be building more aircraft?
    General Goldfein. Sir, thanks. I will start, and then I am 
going to turn over to General Cooper to give you a little bit 
more detail on where we are with our infrastructure. A couple 
key points here. First, it will be no surprise to you that, as 
airmen, we project airpower from our bases, so they are 
actually part of our fighting platform. So when we actually 
talk about infrastructure, we are talking about part of how we 
fight, so it shouldn't be surprising that we are going to put a 
significant amount of resources against our infrastructure. In 
this budget, we made a strategic trade and a decision to 
emphasize combatant commander requirements and new mission 
beddown, KC-46, F-35, because as you stated, as you bring on 
new weapons systems, there are unique capabilities that you 
have to build to be able to bed those down. So you will see 
those two priorities.
    As we have testified previously, you have also seen that we 
have taken risks in our facilities, restoration, modernization 
accounts to do that. So, as I transition to General Cooper, 
what I will tell you is that, right now, we are about 30 
percent over in terms of the infrastructure versus our 
capacity. And so, right now, today, we would tell you that we 
are keeping a number of facilities on these large bases up and 
running because we are not going to tear them down, and we 
don't have the force structure to require us to use them, so we 
could use at least a reorganization to be able to get more 
rightsized. But we also look at that through the lens of where 
we are going to be in the future when we get these new missions 
on. Right? So when you take a look at the tanker trade, as you 
will see, we will actually build up to about 479 tankers before 
we actually start coming back down and sort of keep it 
balanced. So we think that 30 percent over capacity that we 
have now will actually continue to exist as we make the trades 
of the future. So let me turn it over to General Cooper.
    General Cooper. Thank you, General.
    Too much, too old, too expensive. I am on the business side 
of the Air Force, and I am responsible for trying to--and the 
readiness side, so we are trying to make sure that we have the 
appropriate readiness so we can give General Raymond and the 
three and the operations the most the Air Force can give 
America. Our infrastructure is too big. We know that. So, I 
mean, I have a litany of testimonials here. I mean, at Keesler 
Air Force Base where we train our pilots, we have a 50-plus-
year-old drainage system which just gets rid of the water off 
the flight line that can't handle large rains. So about three 
times a year, it floods, and we can't conduct pilot training. 
So, last year, we lost 370 sorties because it rained. That 
facility project is still competing for funds because there are 
other more critical facility projects.
    We avoid $2.9 billion in expenses because of previous BRACs 
every year.
    Mr. Wittman. Thank you, General Goldfein, General Cooper.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    I just have a couple of questions I would like to ask. The 
first is: To what extent are weapon shortages affecting 
prepositioned munition inventories and, consequently, readiness 
to address other potential conflicts around the globe?
    General Goldfein. Thanks ma'am. So, in this budget, what 
you will see is that we are actually funding munitions to the 
capacity that industry can produce. The challenge we face is 
that while we have the munitions we require for the current 
fight, it takes us upwards of 4 years to actually replenish the 
munition that we drop, just based on how we do a budget cycle 
and the timeframe it takes. As we drop more and more munitions, 
then what happens is--and by the way, as we have more and more 
allies and partners that join the coalition, who are also 
looking at the same preferred munitions, primarily Small 
Diameter Bomb, Hellfire, and JDAM [Joint Direct Attack 
Munition], are the three that we tend to be using in this 
fight, precision-guided all of them. What we do then to be able 
to keep the stocks we need for the current fight, is we do take 
the others around the globe down to a certain extent. Now, we 
have a plan to continue to replenish them, but there is a lag 
factor because of that 4-year period. So part of that readiness 
for contingencies in the high-end fight, if you were to have 
the PACOM [U.S. Pacific Command] commander here or the EUCOM 
[U.S. European Command] commander here, they would probably 
both tell you they are not satisfied with their current stock 
levels that we have had to deplete and towards to have what we 
need for the current fight.
    In addition, when our allies and partners come to us and 
say, ``Listen, we are part of this coalition, and we need your 
support with the munitions,'' and ``oh, by the way, here is 
what we would really like to have, Hellfires, JDAMs, Small 
Diameter Bomb,'' that further exacerbates the challenge we 
have. So what we are working to do is to be able to work to 
project future expenditures based on historical averages. We 
have been in this for 15 years. We think we can probably 
project about what we are going to drop 2 to 3 years from now, 
and then be able to shorten the cycle time to be able to 
replenish those munitions so we can keep our stocks high.
    Ms. Bordallo. Thank you. Thank you very much, General. I 
guess now is the $64,000 question. If the current operational 
tempo were to increase, say budget constraints, sequestration, 
whatever else you have out there, what would be the real effect 
on the total Air Force and, of course, readiness, most 
importantly? I mean, I am talking like 2020, or whatever the 
case might be, if you could answer that, General.
    General Goldfein. Yes, ma'am. It will--as I said before, 
the one element that we can't control is demand and demand of 
the things that we look at to generate and sustain readiness 
levers, if you will. It is the demand signal that is actually 
keeping us from doing the high-end training. If that demand 
goes up with the capacity that we currently have, if we don't 
get bigger, if we don't bring these maintainers on, if we don't 
bring our capacity up, we will be less and less ready over time 
for the high-end fight. It goes to, again, if I can fly this 
many sorties, and that is all that I can generate, and I need 
this many sorties here to be able to generate full-spectrum 
readiness, and the reality is the Nation calls on me to do 
this, I am going to have less to do high-end training, and I am 
going to be less ready.
    Ms. Bordallo. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Wittman. Thank you, Ms. Bordallo.
    We will now go to Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. I will be brief about 
this.
    I do want to go back to one of last points Ms. Bordallo 
made, and the munitions--that is hard for us south Georgia boys 
to say; we call it ``ammo.'' It doesn't matter what size it is; 
it is ammo. But our private sector partners that provide a lot 
of those things for us, when we are not able to give them 
consistency in their production, that creates a tremendous 
amount of turmoil on them, and in many cases, we have lost our 
partners in the private sector and ended up with sole source or 
in some cases having to go to other countries that, quite 
honestly, aren't friendly with us to do certain things.
    I do want to encourage you to do one thing. The people on 
the committee, the Armed Services Committee, I think will 
support you regardless of what party they are in. If you look, 
historically, we have been able to work together on these 
issues. But I would ask that you expand and meet with Members 
that are not on the Armed Services Committee. This patch, if 
you will, that is going to temporarily stop the reduction in 
readiness from 50 percent on down, this is a patch, and that is 
all it is. And I think that Members who are not on the Armed 
Services Committee, who are not on Armed Services 
Appropriations, probably don't understand the current 
situation. And some of them are very anxious to cut spending no 
matter where those cuts come from. And my concern is not with 
any of the Members here or on this committee. My concern is 
with Members who have not had the opportunity to listen to 
people who we respect as much as we respect the three of you, 
so I would encourage you to speak with all of the Members as 
well, and take somebody from their State.
    General Goldfein. Yes, sir. Thank you.
    Mr. Wittman. Very good.
    Thank you, Mr. Scott.
    I think that completes our questioning.
    Gentlemen, thank you so much for joining us. I want to 
thank not only you but all of your colleagues there, our airmen 
that have joined us today. A great opportunity to see how the 
process works. We appreciate your perspective. It is very 
important as we develop the policy this year, the National 
Defense Authorization Act, to make sure that we get it right, 
restore as much readiness as we can within this particular 
window.
    So, gentlemen, thanks again for your service. We appreciate 
the sacrifice, too, of your families.
    And our subcommittee is now hereby adjourned.
    [Whereupon, at 9:19 a.m., the subcommittee was adjourned.]

     
=======================================================================

                          A P P E N D I X

                           February 12, 2016

=======================================================================

  
              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 12, 2016

=======================================================================

      
    
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 12, 2016

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. COURTNEY

    General Goldfein. C-130H AMP Increments 1 and 2 are both fully 
funded in the FY17 PB. In accordance with Congressional guidance, AMP 
Increment 1 has been accelerated to complete in December 2019, prior to 
the January 2020 FAA mandate. AMP Increment 2 is accelerated by 14 
years to modernize the fleet by 2028. C-130H AMP Increment 2 now 
modifies at a rate of 22 aircraft per year; this rate was determined by 
considering expected aircraft downtime during modification and impact 
on current operations. No further assistance is requested at this time. 
  [See page 10.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. LOBIONDO
    General Goldfein. We expect the SecAF will approve the enterprise 
and criteria for the F-35A OPS 5, 6, and 7 early this spring.   [See 
page 12.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 12, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. In July 2015, the Marine Corps declared that the F-35 
had achieved initial operational capability (IOC) even though it had 
not met all of the requirements outlined in the Marine Corps IOC 
requirements letter. As the Air Force prepares to declare initial 
operational capability for the F-35A in August 2016, what steps are 
being taken to ensure that the Air Force meets all of the IOC 
requirements outlined in its IOC requirements letter?
    General Goldfein. In his January 30, 2015 IOC requirements letter, 
the Commander of Air Combat Command (COMACC), Gen Carlisle, stated, 
``USAF F-35A IOC shall be declared when USAF Airmen are trained, manned 
and equipped to conduct basic Close Air Support (CAS), interdiction, 
and limited Suppression/Destruction of Enemy Air Defense (SEAD/DEAD) 
operations in a contested environment. The F-35A shall have the ability 
to conduct operational missions utilizing System Development and 
Demonstration (SDD) program of record weapons and mission systems. The 
war fighter shall be supported with verified tactics detailing core 
mission fundamentals. The first USAF F-35A operational squadron shall 
have 12-24 primary aircraft and shall be capable of deploying and 
performing its assigned mission(s). In-place logistics elements shall 
include personnel, support equipment, spares, munitions, verified 
technical manuals, and training programs. In-place operational elements 
shall include pilots, maintenance personnel, operations support 
personnel, verified technical manuals, mission qualification training 
programs, and training devices. USAF IOC is capability-based and will 
be declared when the above requirements are met.'' Consistent with the 
Integrated Master Schedule, the program is on track for IOC within the 
window of August 1, 2016 (objective) and December 31, 2016 (threshold).
    COMACC reviews program schedule and performance monthly to consider 
status and progress toward IOC. He is closely monitoring three areas: 
software/radar stability, Autonomic Logistics Information System 
software delivery, and Mission Data File delivery. With this increased 
attention we are confident we will achieve IOC requirements within the 
August to December 2016 window.
    Mr. Wittman. Live-fly training, particularly for 5th generation 
aircraft, can be limited due to range restrictions, airspace and threat 
replicator limitations, environmental factors, and other issues. The 
Air Force has identified the integration of live, virtual, and 
constructive (LVC) training as critical to its vision of how best to 
train aircrews in complex environments.
    Is the current range and air space infrastructure sufficient to 
meet the training needs of the Air Force? If not, what aircraft are 
most affected by range and air space limitations?
    General Goldfein. No. We are currently limited in our ability to 
provide relevant and realistic training to 4th Generation and 5th 
Generation aircrews; because our live environment cannot fully 
replicate the conditions they may encounter in future conflicts. Our 
limiting factors include a lack of realistic threat density, 
limitations on spectrum use, and the increasing footprints required for 
new weapons and weapon systems. We are investing across the FYDP to 
upgrade our threat replication capability and develop better synthetic 
training capabilities.
    Mr. Wittman. Are any additional training resources, such as 
adversary air for training purposes, required to support 5th generation 
or legacy aircraft?
    General Goldfein. Yes. Live adversaries using realistic threat 
tactics with appropriately sized threat presentations and realistic 
ground-based threats, range infrastructure, and target sets capable of 
emulating potential adversary defenses are required to provide relevant 
and realistic high end training for 4th Generation and 5th Generation 
aircrews. Additionally, systems capable of emulating adversary jammers 
would further enhance live training.
    Mr. Wittman. What plans, if any, does the Air Force have to make 
investments in training resources before additional 5th generation 
squadrons reach initial operational capability status?
    General Goldfein. The Air Force has significant plans to invest in 
live, virtual, and constructive training environments; live 
capabilities such as ranges, threats, adversary air, and electronic 
attack; simulation capabilities to include a timely fielding
of F-35 Full Mission Simulators; and a robust investment in Distributed 
Mission Training capability. Our plans for constructive capabilities 
include technology demonstrators such as the Joint Synthetic 
Environment (JSE); a synthetic training environment that will enhance 
future 5th generation training, and Secure Live Virtual Constructive 
Advanced Training Environment (SLATE); which is a live training 
environment with synthetic input that will integrate LVC training 
environments.
    Mr. Wittman. To what extent has the Air Force identified specific 
live-fly training challenges that will be overcome by training in a 
simulated environment?
    General Goldfein. The AF has carefully identified, assessed, and 
understands the growing challenges to live-fly training. In response to 
these challenges, the Air force will increasingly leverage virtual 
simulators to raise the level of overall training effectiveness, 
especially in the highly contested environment. Fifth (5th) generation 
weapon systems offer a unique challenge in that their capabilities 
cannot be fully exercised in the live environment, and will benefit 
greatly using high fidelity synthetic training.
    Mr. Wittman. To what extent has the Air Force developed an 
investment strategy to ensure it will have the resources needed to 
carry out its LVC vision?
    General Goldfein. Currently, the AF is developing an over-arching 
investment strategy at the enterprise level. Air Force Major Commands 
(MAJCOMs) have developed Core Function Master Plans/LVC investment 
strategies leading to the President's Budget input.
    Mr. Wittman. Discuss the linkage between decreased aircraft 
inventory, airframe age and flight hours, manpower and readiness.
    General Goldfein. Twenty-five years of continuous combat 
operations, coupled with budget instability and lower than planned top 
lines, have made the Air Force one of the smallest, oldest and least 
ready forces in its history.
    To put our relative size, age, and readiness in perspective, in 
1991 we deployed 33 of our 134 combat-coded Active, Guard, and Reserve 
fighter squadrons in support of Operation Desert Storm. We were 946,000 
airmen strong. The average age of our aircraft was 17 years, and 80 
percent of the fighter force was ready for full-spectrum conflict. In 
contrast, today we have just 55 total force fighter squadrons, and 
approximately 660,000 total force airmen. The average age of our 
aircraft is 27 years, and less than 50 percent of our combat Air Force 
is ready for full-spectrum conflict.
    If we are to remain the most lethal and effective air, space, and 
cyberspace force on the planet, we must take steps to rebuild our 
readiness now. In order to accomplish this goal, the fiscal year 2017 
budget aims to build, train and equip an Air Force capable of 
responding to today's and tomorrow's threats.
    The F-35, KC-46 and LRSB will change the calculus of any potential 
adversary and will be critical to success in any future high-end fight. 
For an Air Force, failing to push the technological edge equals 
failure, and when the Air Force fails, the joint team fails. Our Fiscal 
Year 2017 budget request includes the funding required to recover the 
manpower needed to ensure the health of our nuclear forces, aircraft 
maintenance teams, battlefield airmen, and other critically under-
manned and over-tasked capabilities. A return to BCA-level funding in 
Fiscal Year 2018 will further decimate our readiness and modernization, 
and will place the nation at an unacceptable risk.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. What percentage of readiness could the Air Force 
reasonably attain and by what time frame? How much of the Air Force's 
capacity is consumed by day-to-day, steady-state operations? What is 
the Air Force's capacity to provide additional ``surge'' forces to 
respond to a major contingency? How would you characterize the Air 
Force's readiness for full-spectrum combat operations?
    General Goldfein. a. Our Nation needs its Air Force to be at least 
80% full spectrum ready. It will take eight to ten years to achieve 
that level of readiness if we actually get the conditions set to be 
able to rebuild readiness. The one variable we don't control is the 
operations tempo, and at current capacity, the current tempo creates a 
rolling timeframe for readiness recovery.
    b. Current readiness capacity is being consumed faster than we can 
rebuild it. The Air Force has approximately 20,000 Airmen deployed 
worldwide and another 71,000 permanently stationed at overseas bases. 
In particular, 2/3 of our fighter squadrons are engaged on a day-to-day 
basis. That's why in this year's budget we valued capacity and 
readiness over modernization.
    c. If required, the AF is postured to provide nearly 100% of its 
combat force in response to a major contingency, however surging to 
that contingency may involve
disengaging from existing steady-state operations. Because over 50% of 
our forces are not sufficiently ready for a high-end, full spectrum 
fight, it could take longer to get to the fight, if could take longer 
to win, and potentially cost more lives.
    d. Twenty-five years of continuous combat operations and difficult 
decisions in the face of austere budgets has shaved our capacity to the 
point where our strategic reserve is now operationalized to support 
rotational demand, and the Total Force is required to surge in response 
to a major contingency. As of now, less than 50% of Air Force units are 
full spectrum ready.
    Ms. Bordallo. How would you assess ``high-end'' combat skills, such 
as those that would be employed against a near-peer competitor? What do 
you believe are the biggest obstacles in the Air Force's readiness 
recovery? Are there areas that cannot recover even if provided 
additional resources in the future? What is the one thing Congress can 
do to improve USAF readiness?
    General Goldfein. The capability gap is closing. Today's focus on 
counter-insurgency in a permissive environment limits our opportunity 
to train against a high end threat, and our adversaries are not 
standing still. They continue to invest in high end capability and they 
are catching up.
    The biggest obstacle in the Air Force's readiness recovery is the 
Budget Control Act (BCA) and sequestration. The Air Force's readiness 
recovery depends on the steadfast commitment to time and resources to 
achieve our readiness recovery goals. All areas can recover if provided 
sufficient resources and opportunities to train across the entire range 
of military operations.
    BCA and sequestration have resulted in tens of billions of dollars 
of lost buying power as the Air Force has been forced to make extremely 
difficult decisions to balance today's readiness against tomorrows 
capability. We need repeal of the BCA.
    Ms. Bordallo. If near-term readiness is a priority, what actions or 
resources are being applied to near-term readiness recovery efforts?
    General Goldfein. Readiness growth cannot be accelerated 
substantially with resources alone while ongoing rotational deployments 
continue to consume readiness. The Air Force requires sufficient and 
predictable funding, along with increased manpower in critical skills 
areas, and improved deploy-to-dwell time to improve readiness. Today, 
we are working closely with the Combatant Commanders to maintain 
deployment levels at or below readiness recovery rates.
    Ms. Bordallo. The latest projections for rebuilding readiness are 
based on setting the conditions for readiness recovery in FY 2020. What 
tangible measures can you point to that suggest conditions will be set 
in 2020, particularly in terms of operational tempos?
    General Goldfein. The Air Force's plan provides the resource 
foundation from which to begin growth in FY20 if deployment conditions 
improve. We will regularly analyze actual conditions and adjust the 
resource plan accordingly, but the readiness enterprise depends on 
consistent, predictable funding. The Air Force will fulfill Combatant 
Commander requirements, recognizing that a high deploy-to-dwell rate 
consumes full-spectrum readiness.
    Ms. Bordallo. What, if any, mitigation plan does the Air Force have 
to meet combatant commander requirements if the conditions for 
readiness recovery (decreased deployments/operational tempo and 
predictable funding) are not set in 2020?
    General Goldfein. The Air Force will continue to meet Combatant 
Commander requirements to the best of our ability. Senior Department of 
Defense leaders have made restoring joint readiness a top priority; and 
we continue to work closely with them to ensure readiness is restored 
as quickly as possible. Global Force Management reforms implemented 
within the past year include consideration for force element readiness, 
and they appear to be a promising initiative in assisting with our 
readiness recovery.
    Ms. Bordallo. Are there particular service core function areas that 
are more at risk than others, in terms of their readiness recovery 
efforts?
    General Goldfein. The core functions at greatest risk are those 
under the greatest demand relative to capacity of equipment or 
personnel (supply-demand mismatch). This dynamic prevents growth due to 
constant loss of readiness during rotational deployment (Example: 
Command and Control (C2)). Similarly, core functions with complex 
training requirements or very long-lead resourcing requirements are 
also at risk due to the long timelines associated with the development 
of proficiency in complex tasks or acquisition of materials (Example: 
Personnel Recovery (PR)).
    Ms. Bordallo. There are several communities within in the Air Force 
that have deploy-to-dwell rates below the Secretary of Defense's goal 
of 1:2, and some stressed career fields have rates of 1:1. How does the 
Air Force intend to increase dwell time
for personnel in its stressed career fields while still meeting 
combatant commander demands?
    General Goldfein. The Air Force has several unique capabilities 
that are low in supply yet very high in demand (Personnel Recovery, 
Intelligence, Air Battle Managers, etc.). We comply with SecDef policy 
established in the Guidance for the Employment of the Force (GEF) to 
maintain an active component deploy-to-dwell goal of 1:2 with a 
threshold of 1:1. As a result, 90% of the Active component met 1:2 or 
better deploy-to-dwell in FY15. The FY17 Baseline Global Force 
Management Allocation Plan (GFMAP) sources all force elements within 
readiness recovery thresholds to meet Combatant Commanders' most 
important requirements.
    But we remain concerned. Without predictable budgets at levels that 
allow us the flexibility to balance capability, capacity, and 
readiness, we cannot recover full spectrum readiness.
    Ms. Bordallo. What is the plan to get the current deploy-to-dwell 
ratio to a maintainable level? Is there a total force solution to this?
    General Goldfein. The Air Force's plan is to fill Combatant 
Commander requirements at a regain readiness rate in compliance with 
SecDef policy established in the Guidance for the Employment of the 
Force (GEF). The FY17 Baseline Global Force Management Allocation Plan 
(GFMAP) will source all force elements within readiness recovery 
thresholds. Exceptions to this policy are only granted in rare cases 
and at the 3-star level or above.
    Yes. The Air Force fully integrates the Reserve Component into 
sourcing global combatant command requirements. Lack of access to the 
RC, either in activation authority or funding, will severely impact 
USAF's ability to meet Combatant Commander demands while still 
maintaining regain readiness thresholds.
    Ms. Bordallo. To what extent is the Air Force's flying hour program 
properly sized to support completion of training requirements?
    General Goldfein. The FY17 Presidents Budget capped the Air Force's 
peacetime Flying Hour Program (FHP) to 92% of the minimum required 
flight hours. The Air Force is currently unable to execute the minimum 
required flight training to sustain readiness due to limits in capacity 
in several key areas. These areas include: the lack of the proper 
number and skill level of Airmen in critical areas (i.e. aircraft 
maintenance, aircrew); continued high OPSTEMPO; and consistent high 
demand to deploy forces. These factors, levied against a reduced force 
structure, limit our opportunities to train and build readiness.
    To build readiness, the FHP will need to be expanded. But before 
the FHP can be successfully expanded, several limiting factors must be 
rectified. These factors include: improving manning in critical skill 
areas (i.e. aircraft maintenance, aircrew); better management of 
OPSTEMPO; and limitations to the demand to deploy forces. Incremental 
improvements in these areas plus adequate sustainment and training 
resources will eventually allow the AF to expand the FHP to the minimum 
requirement (100%) and beyond to build and sustain a ready force.
    Ms. Bordallo. In instances where the Air Force has been unable to 
execute its flying hour program, what factors contributed to under-
execution of the program?
    General Goldfein. Two key factors contribute to the Air Force 
inability to execute the full FHP requirement: 1) ongoing rotational 
deployments in support of ongoing combatant command requirements reduce 
opportunity to execute home station flying hours; and 2) manpower 
shortfalls in key areas of the maintenance enterprise impede the Air 
Force's ability to generate training sorties at the levels necessary to 
execute a full flying hour program.
    Ms. Bordallo. Is the current range and air space infrastructure 
sufficient to meet the training needs of the Air Force? If not, what 
aircraft are most affected by range and air space limitations?
    General Goldfein. No. We are currently limited in our ability to 
provide relevant and realistic training to 4th Generation and 5th 
Generation aircrews; because our live environment cannot fully 
replicate the conditions they may encounter in future conflicts. Our 
limiting factors include a lack of realistic threat density, 
limitations on spectrum use, and the increasing footprints required for 
new weapons and weapon systems. We are investing across the FYDP to 
upgrade our threat replication capability and develop better synthetic 
training capabilities.
    Ms. Bordallo. Are any additional training resources, such as 
adversary air for training purposes, required to support fifth 
generation or legacy aircraft?
    General Goldfein. Yes. Live adversaries using realistic threat 
tactics with appropriately sized threat presentations and realistic 
ground-based threats, range infrastructure, and target sets capable of 
emulating potential adversary defenses are required to provide relevant 
and realistic high end training for 4th Generation and
5th Generation aircrews. Additionally, systems capable of emulating 
adversary jammers would further enhance live training.
    Ms. Bordallo. What plans, if any, does the Air Force have to make 
investments in training resources before additional 5th generation 
squadrons reach initial operational capability status?
    General Goldfein. The Air Force has significant plans to invest in 
live, virtual, and constructive training environments; live 
capabilities such as ranges, threats, adversary air, and electronic 
attack; simulation capabilities to include a timely fielding of F-35 
Full Mission Simulators; and a robust investment in Distributed Mission 
Training capability. Air Force plans for constructive capabilities 
include technology demonstrators such as the Joint Synthetic 
Environment (JSE); a synthetic training environment that will enhance 
future 5th generation training, and Secure Live Virtual Constructive 
Advanced Training Environment (SLATE); which is a live training 
environment with synthetic input that will integrate Live, Virtual, and 
Constructive training environments.
    Ms. Bordallo. If the current operational tempo were to increase, 
what would be the effect on readiness?
    General Goldfein. If operational tempo increases, we would expect a 
further reduction in full spectrum readiness. High operations tempo 
substantially reduces our units' opportunity to train for its FULL 
mission set. A higher ops tempo would further reduce our opportunities 
to train.
    Ms. Bordallo. To what extent are weapons shortages affecting 
prepositioned munitions inventories, and consequently readiness to 
address other potential conflicts around the globe?
    General Goldfein. The increased expenditures of certain munitions, 
along with known budgetary constraints since the August 2014 start of 
Operation INHERENT RESOLVE (OIR) have resulted in reallocation of some 
munitions stocks from pre- and forward-positioned locations to the 
point of need. Replenishment of those stocks will occur through 
existing Air Force munitions prioritization and positioning 
governances. Inventory levels for Precision Guided Munitions will 
continue to decline until new production increases.
    Ms. Bordallo. How, specifically, is your current budget request 
balancing the short-term requirement to repair or rebuild equipment 
with longer-term efforts to replace that same equipment with next-
generation equipment?
    General Goldfein. This year's budget prioritized capacity and 
readiness over modernization. We sacrificed investments in next-
generation capability (F-35, C130Js) to fund readiness, grow capacity 
in manpower, and to keep force structure. For example, we are growing 
end strength to 317,000 on a path to 321,000. Also, F-16C/D models will 
undergo multiple offensive and defensive upgrades to ensure capability 
and survivability in the current and future threat environments, as the 
F-35 comes into the field in greater numbers.
    Ms. Bordallo. Do you have a strategy that ensures you do not 
unnecessarily reset equipment you plan to replace? If so, does that 
strategy present any risks to readiness? Please explain why or why not.
    General Goldfein. We have a very robust reset and refurbish plan 
for our equipment. All of our major end items like aircraft and engines 
have structured lifecycle management plans to ensure we get the best 
value when deciding whether to overhaul, modernize, or purchase new. 
For our aircraft we use an economic service life analysis to determine 
whether to overhaul, extend the life, or retire and buy new.
    We apply similar methods for other equipment where we properly 
balance decisions between refreshing equipment, redistributing between 
units, and buying new equipment. This approach ensures the maximum 
service life of our equipment, and prevents a large reset bill.
    Ms. Bordallo. To what extent are reset efforts and schedules 
aligned with unit training plans and supporting, or hindering, the 
achievement of overall unit readiness?
    General Goldfein. High operations tempo (deploy-to-dwell ratios 
below 1:4) hinders our ability to effectively synchronize and schedule 
training events to achieve full spectrum readiness. The current ops 
tempo has compressed training timelines across most Air Force 
communities; forcing units to focus on their next deployment and 
assigned missions, versus completing the training curriculum for all of 
their designed operational capability tasks.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. GIBSON
    Mr. Gibson. How many Joint Forcible Entry Exercises are in the FY17 
AF budget?
    General Goldfein. The Joint Forcible Entry Exercise (JFEX) is now 
known as the Joint Operational Access Exercise (JOAX). While the JOAX 
is not a specific line item in the FY17 President's Budget, Air 
Mobility Command uses Operations & Maintenance funding to support four 
JOAX.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
